               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Data and Voice Communications

                        Audit Report




                                              June 14, 2013

Report Number IT-AR-13-005
                                                                        June 14, 2013

                                                  Data and Voice Communications

                                                        Report Number IT-AR-13-005




BACKGROUND:
The U.S. Postal Service relies on data     reviewed by routinely monitoring and
and voice communications to support        reviewing data and voice services and
one of the the world’s largest computing   contracts. In addition, to improve the
networks and email systems. This           monitoring of data and voice
communication infrastructure reaches       communication, the Postal Service
over 35,000 Postal Service facilities      implemented and enhanced computer
from the nation’s capital to the remote    applications to provide accurate data
locations of Alaska.                       and voice inventory and payment
                                           processes. Further, information
With declining mail volume and             technology projects included reviews of
changing consumer needs, the Postal        sites to determine whether they were
Service is optimizing facilities, which    valid and active and data
includes the consolidation of plants and   communication was still appropriate,
operations. The consolidation efforts      and review and removal of unused voice
affect data and voice communications       communication. Finally, the Postal
as data transmissions increase in the      Service projected annual savings of
gaining facility and decrease in the       $4 million from efforts to recompete its
vacating facility.                         telephone line contracts and $8.8 million
                                           estimated savings from efforts to
Our objective was to determine whether     recompete data services.
Postal Service facilities have
appropriate data and voice                 Continuously reassessing data and
communication. In addition, this review    voice communications assets ensures
served as a follow up to a prior U.S.      that management is using optimal
Postal Service Office of Inspector         services and resources.
General audit, evaluating whether
corrective measures taken were             WHAT THE OIG RECOMMENDED:
successful in providing expected           Because the Postal Service
benefits.                                  demonstrated diligence in managing
                                           data and voice communications, we are
WHAT THE OIG FOUND:                        not making any recommendations.
The Postal Service provided appropriate
data and voice communication for the       Link to review the entire report
active and nonactive facilities we
June 14, 2013

MEMORANDUM FOR:            JOHN T. EDGAR
                           VICE PRESIDENT, INFORMATION TECHNOLOGY




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Data and Voice Communications
                           (Report Number IT-AR-13-005)

This report presents the results of our audit of U.S. Postal Service Data and Voice
Communications (Project Number 13BG009IT000). The Postal Service informally
reviewed a discussion draft of this report and had no comments or concerns.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul L. Kuennen, director,
Information Technology, or me at 703-248-2100.

Attachment

cc: Ellis A. Burgoyne
    Tom A. Samra
    Larry K. Wills
    Cliff M. Biram, Jr.
    Robert E. Nicholson
    Corporate Audit and Response Management
Data and Voice Communications                                                                                       IT-AR-13-005




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Data and Voice Communications .................................................................................... 2

Recommendation ............................................................................................................ 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................. 10
Data and Voice Communications                                                                        IT-AR-13-005




Introduction

This report presents the results of our audit of U.S. Postal Service Data and Voice
Communications (Project Number 13BG009IT000). Our objective was to determine
whether selected active and nonactive Postal Service facilities have the appropriate
data and voice communications. This audit addresses operational risk and serves as a
follow-up audit to a prior U.S. Postal Service Office of Inspector General (OIG) audit.1
See Appendix A for additional information about this audit.

The Postal Service relies on data and voice communications to support one of the
world’s largest computing networks and electronic mail systems. With expenses and
capital costs of $155 million in fiscal year (FY) 2012, the Postal Service plans, monitors,
reviews, and procures data and voice communications requirements throughout the
Postal Service’s network of facilities to ensure a communications environment that
supports its changing business needs. The Telecommunication Services2 group
manages this data and voice communication infrastructure using a wide range of
telecommunication and network technologies.3

Conclusion

The Postal Service provided appropriate data and voice communications for the active
and nonactive facilities we reviewed. To ensure appropriate levels of data and voice
communications, the Postal Service routinely monitors and reviews data and voice
services and contracts nationwide. To improve the monitoring of data and voice
communications, the Postal Service implemented and enhanced computer applications
to provide accurate data and voice inventory and payment processes. The Telecom
Services Site Verification project4 included the review of sites to determine whether they
were valid and active and whether the data communications were still appropriate. In
addition, the Field Phone Line Reduction project5 reviewed and removed unused voice
communications. The Postal Service estimates annual savings of $4 million from efforts
to recompete its telephone line contracts and $8.8 million from recompeting data service
contracts.




1
  National Voice Services – Savings Opportunities (Report Number: IS-AR-05-016, dated September 30, 2005).
2
  Telecommunication Services is part of the Enterprise Access Infrastructure area, which manages all access to
Postal Service Information Technology (IT).
3
  Network technologies include wired, wireless, and satellite networks.
4
  Telecom Services Site Verification Project (Request For Action #12-00004, Issue Date: January 31, 2012, Required
Completion Date: February 17, 2012).
5
  Field Phone Line Reduction Project (Request For Action #12-00001, Issue Date: October 18, 2011, Required
Completion Date: January 18, 2012).
                                                            1
Data and Voice Communications                                                                           IT-AR-13-005




Data and Voice Communications

Our audit determined that data and voice communication services were appropriately
configured for active facilities and discontinued at nonactive facilities. The Postal
Service monitors data and voice communication technology and related contracts to
ensure the appropriate types of services are available and their costs are reasonable.
The Telecommunication Services group initiated these monitoring projects in response
to prior OIG findings, as part of general cost-saving efforts, and to make efficient use of
technology. Continuously reassessing data and voice communication assets ensures
use of optimal services and resources.

Our audit determined the Telecommunication Services group implemented solutions to
centrally manage and support data and voice communications. In response to a prior
OIG audit, the Postal Service implemented ProfitLine6 and further enhanced it to
implement the Telecom Ordering and Management Environment (TOME).7

TOME provides an inventory of all telephone lines and reporting to facilitate monthly
management reviews of telephone line configurations at their locations. In addition,
Telecommunication Services implemented Telecommunications Expense and Inventory
Management (TEM)8 that combines service ordering, provisioning, acceptance,
operational oversight, and bill certification for data communications. Table 1 provides
details on these systems.




6
  A vendor-supplied, web-based service that collects local voice telephone bills, provides a preliminary analysis,
passes the statement information, collects payment from Postal Service Headquarters Finance via electronic data
interchange, and provides timely payment to the local telephone companies.
7
  A commercial off-the-shelf software that provides local voice telephone ordering, provisioning, and invoicing
services.
8
  Tracker of telecom inventory, billing, and invoicing processes.


                                                          2
   Data and Voice Communications                                                                        IT-AR-13-005




                               Table 1: Telecommunication Services
                           Computer Applications in Support of Operations

 Application           Start
    Name               Date                Description                 Functionality               Comment
 ProfitLine            2006       Telephone lines for all            Provide                   Project was result
                                  facilities in the entire           centralized               of OIG finding and
                                  Postal Service                     location for the          recommendation.
                                                                     voice services.
 TEM                   2011       Data Services, Facility            Provide                   Project involved
                                  Details, Vendor Invoices,          centralized               large number of
                                  Invoice Review and                 location for the          vendors and
                                  Reconciliation                     services.                 services within
                                                                                               one system.
 TOME                  2013       Enhancement to                     Improve                   Project was result
                                  ProfitLine’s                       centralized               of enhancements
                                  MyTelcoManager (MTM)9              location for voice        needed for
                                                                     services.                 application.
Source: Postal Service Enterprise Information Repository.

   Telecommunication Services completed several projects to improve technology, provide
   cost savings, ensure revenue protection, fulfill legal requirements, and support new
   computer implementations within Postal Service operations, as shown in Table 2.




   9
     MTM is the intelligent web platform designed to help maximize the business value for communications products and
   strategies through improved visibility and control.


                                                            3
     Data and Voice Communications                                                                            IT-AR-13-005



                     Table 2: Telecommunication Services Highlights of Projects
          Subject                        Purpose                     Start Date       Completion Date               Results
Telecom Services Site      This project (Ping project)                1/31/2012            2/17/2012            Cost savings.
Verification               determined whether a site was
                           valid and active and whether
                           broadband service was still
                           required.
Field Telephone Line       Removed unused telephone                  10/18/2011            1/18/2012            Cost savings.
Reduction Project          lines.

Upgrade of Vehicle         Upgraded workstations to                   3/19/2013      Completion by the          Support other
Management Facility        improve network connectivity and                          end of scheduled           projects.
Solutions for              bandwidth in support of SEAM                              ACE3 deployment,
Enterprise Asset           project implementation.                                   scheduled for
Management                                                                           Quarter 4, FY 2015,
        10
(SEAM) kiosks from                                                                   or as soon as current
Advance Computing                                                                    workstation requires
Environment2 (ACE2)                                                                  replacement.
         11
to ACE3


Installation of Passive    Implemented new scanning                   3/12/2013      Completion by              Support other
Adaptive Scanning          technology using data network                             schedule of PASS           projects;
                 12
System (PASS)              transmissions to recover postage                          Program Office; no         revenue
Access Points in           shortages and deter postage                               later than May 31,         protection.
Delivery Units at          fraud.                                                    2013.
Processing and
Distribution
Centers/Facilities

ProfitLine/MTM             Migrated the current system to             2/12/2013             3/2/2013            Improvement.
Migration to               TOME - invoice review and
Tangoe/TOME                inventory management for local
                           telephone lines.
Dial-Up Site               Provided network connectivity to           3/19/2013             4/2/2013            Supporting
Verification               all retail offices for credit card                                                   PCI-DSS
                           transactions; addressed the                                                          requirements.
                           Payment Card Industry Data
                                                             13
                           Security Standard (PCI-DSS)
                           requirement of encryption on the
                           credit card device.
    Source: IT Communications Central: Request For Action 2013 and For Your Information 2013.


     10
        SEAM provides an enterprise solution for inventory management, inventory/warehouse operations, supply chain
     planning, and service management to effectively manage and service Postal Service-installed equipment and
     deployed vehicles and tracking of service events throughout their lifecycle.
     11
        ACE2 to ACE3 is the migration from the previous workstation environment to an updated workstation.
     12
        PASS includes units of overhead camera that captures Arrival-at-Unit scan events and announces potential short
     paid, unpaid (duplicate, counterfeited, and so forth), out-of-zone, and Electronic Verification System sampling parcels.
     13
        PCI-DSS is a comprehensive standard the PCI Security Standards Council (SSC) developed to enhance the
     security of credit or debit card data. The standard includes specifications, tools, measurement, and support resources
     to help ensure the safe handling of sensitive information. It applies to all organizations that hold, process, or
     exchange cardholder information from any card issued by a member of the PCI SSC. The standard provides a
     framework for developing a robust data security process that includes preventing, detecting, and reacting to security
     incidents.


                                                                4
Data and Voice Communications                                                             IT-AR-13-005



Telecommunications Services also created an application to monitor network activity
and provide real-time reporting on the availability of network transmissions supporting
data communications, as shown in the sample report from the system in Table 3.

                           Table 3: Telecommunication Services
                                    Network Dashboard




             Source: Telecommunication Services Mail Processing Connectivity Dashboard.

Recommendation

Since management controls over data and voice communications were determined to
be adequate, we are issuing this report without any further recommendations. Because
we did not make any recommendations, management chose not to respond formally to
this report.




                                                    5
Data and Voice Communications                                                                          IT-AR-13-005




                                 Appendix A: Additional Information

Background

The Postal Service IT area includes Enterprise Access Infrastructure (EAI).14 Within
EAI, the Telecommunication Services group monitors and maintains data and voice
communications to provide the Postal Service with high-quality, reliable, and cost-
effective voice and data communications through management of a wide range of
technologies including:

    All transmission technologies used on behalf of the Postal Service at Postal Service
     or non-Postal Service facilities (such as local area networks; wide area networks;
     voice communications; videoconferencing systems; voice messaging systems;
     desktop video communications; satellite broadcasts; facsimile transmission; and all
     other transmissions over landline, wireless or Internet-based networks).

    All types of information and network services and data, voice, image, and multimedia
     communications, regardless of transmission technology.

Telecommunication services have significantly evolved over the last 11 years, and they
are increasingly critical to Postal Service operations:

    Mail processing operations now require network connectivity.

    PCI-DSS requires encryption of credit/debit card transactions, necessitating network
     connectivity.

    Transactions conducted via websites, such as USPS.COM,15 are an increasing
     source of revenue.

    Online applications developed over the last decade, such as PostalOne!,16 require
     network connectivity.

Figures 1 through 3 provide examples of growth in Postal Service telecommunication
services over the past 11 years:




14
   EAI manages all access to the Postal Service IT infrastructure and provides the operational support, deployment,
and strategic direction for the enterprise.
15
   USPS.com is the official website for the Postal Service, located at www.usps.com/.
16
   PostalOne! offers mailers with an efficient, cost-effective, and seamless process from mail preparation to mail
delivery. The application facilitates the integration of business processes to expedite mail acceptance and better
support Postal Service operations.


                                                          6
Data and Voice Communications                                                                          IT-AR-13-005



                          Figure 1: Growth in Local Area Network Ports




Source: Telecommunication Services chief information officer (CIO) update to Joseph Corbett, chief financial
officer and executive vice president, dated August 5, 2012.

           Figure 2: Growth in Network Sites, Devices, and Conference Calls




Source: Telecommunication Services CIO update to Joseph Corbett, chief financial officer and executive vice
president, dated August 5, 2012.




                                                         7
Data and Voice Communications                                                                        IT-AR-13-005



          Figure 3: Growth in Plant Sites, Firewall Servers, and Data Throughput




Source: Telecommunication Services CIO update to Joseph Corbett, chief financial officer and executive vice
president, dated August 5, 2012.

Objective, Scope, and Methodology

Our objective was to determine whether selected Postal Service facilities have
appropriate data and voice communications and serve as a follow up to prior OIG audit
work. To accomplish our objective, we:

      Interviewed Postal Service personnel in Facilities, IT, Finance, and Delivery
       Operations to determine processes and procedures to manage telecommunication
       services and facilities.

      Judgmentally selected four districts17 to review the appropriateness of their data and
       voice communication services.

      Randomly selected 40 active facilities from the four districts to review data and voice
       communication services.

      Randomly selected 40 nonactive facilities from the same four districts to verify data
       and voice services were terminated.

      Extracted data from the TEM system and evaluated the type of data services for
       each of our sampled facilities.


17
     The Postal Service districts included Gateway, MO; Greensboro, NC; Northland, MN; and San Francisco, CA.


                                                          8
Data and Voice Communications                                                    IT-AR-13-005



   Reviewed data from ProfitLine for each of our sampled facilities and confirmed
    monthly telephone line reviews to ensure appropriateness based on each facility’s
    needs.

   Validated the existence of field IT procedures for the removal of data and voice
    communications at our sampled districts.

   Discussed data and voice projects with Postal Service managers and reviewed
    highlights of their cost saving, revenue protection, and PCI-DSS requirements
    projects.

   Curtailed our review at the initial 40 active and 40 nonactive facilities.

We conducted this performance audit from November 2012 through June 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit survey objective. We discussed our
observations and conclusions with management on June 5, 2013, and included their
comments where appropriate.

We assessed the reliability of Postal Service application data by analyzing and
obtaining supporting documents, where needed. We determined that the data were
sufficiently reliable for the purposes of this project.




                                               9
    Data and Voice Communications                                                   IT-AR-13-005



    Prior Audit Coverage

                                                        Final
                                                       Report          Monetary Impact (in
           Report Title              Report Number       Date                 millions)
National Voice Services –            IS-AR-05-016     9/30/2005              $9,883,972
Savings Opportunities
Report Results: The Postal Service could capture savings by performing a
comprehensive inventory and assessment of local telephone line needs in accordance
with existing policy. The audit identified costs for unneeded telephone lines and made five
recommendations to improve controls over managing and monitoring local telephone
resources. Management agreed to provide guidance and specific procedures to field
districts for validating telephone line inventories, evaluating needs for existing services
and disconnecting unneeded lines and reporting the resulting cost savings through
channels to the OIG; and to terminate unnecessary telephone lines identified during our
audit. Management also agreed to establish a centralized point to manage all voice
services through a web portal, redistribute certification procedures, and sample billing
accounts that were audited and validated under the program. Finally, management
agreed as new technology is deployed to ensure that associated telephone lines are
removed that previously supported applications being replaced. Management agreed with
the recommendations and corrected the issues.




                                                10
